1
Case: 19-51131

Document. 00515343460

Page: 1

Date Filed: 03/17/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
GotitOTAppeA
RBiQcut

FILED
No. 19-51131
Summary Calendar

March 17,2020

D.C. Docket No. 5:19-CV-440

Lyle W. Cayce
Clerk

GEORGE ANDREW BENAVIDES,
Plaintiff - Appellant
v.
WILLIAM PELHAM BARR, United States Attorney General; DONALD
TRUMP, United States President; UNITED STATES DEPARTMENT OF
JUSTICE; UNITED STATES FEDERAL BUREAU OF INVESTIGATIONS;
UNITED STATES DEPARTMENT OF VETERANS AFFAIRS; UNITED
STATES DEPARTMENT OF DEFENSE; UNITED STATES DEPARTMENT
OF THE NAVY; UNITED STATES OF AMERICA; OFFICE OF THE NAVAL
INSPECTOR GENERAL,
Defendants - Appellees
Appeal from tie United States District Court for tie
Western District of Texas
Before DAVIS, SMITH, and EUGGINSON, Circuit Judges.
JUDGMENT
This cause was considered on tie record on appeal and tie briefs on file.
It is ordered and adjudged that tie judgment of the District Court is
affirmed. See 5th Cir. R. 47.6.
IT IS FURTHER ORDERED that plaintiff-appellant pay to defendantsappellees tie costs on appeal to he taxed iy tie Clerk of this Court.

2

Case: 19-51131

Document: 00515308742

Rage:!

Date Fled: 02/12/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-51131

GEORGE ANDREW BENAVIDES,
Plaintiff - Appellant
v.
WILLIAM PELHAM BARR, United States Attorney General; DONALD
TRUMP, United States President; UNITED STATES DEPARTMENT OF
JUSTICE; UNITED STATES FEDERAL BUREAU OF INVESTIGATIONS;
UNITED STATES DEPARTMENT OF VETERANS AFFAIRS; UNITED
STATES DEPARTMENT OF DEFENSE; UNITED STATES DEPARTMENT
OF THE NAVY; UNITED STATES OF AMERICA; OFFICE OF THE NAVAL
INSPECTOR GENERAL,
Defendants - Appellees

Appeal from the United States District Court
for the Western District of Texas

ORDER:
IT IS ORDERED that the appellant’s motion to amend the caption is
DENIED.

)' -f''
JAMES C. HO
UNITED STATES CIRCUIT JUDGE

3

Casa 5:19-omxj440-dae Docurnmn Glad 120909 Page l of 6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
No. 5:19-CV-440-DAE

GEORGE ANDREW BENAVIDES,
Plaintiff

I
I
8

Vi.

UNITED STATES OF AMOUCA,
UNTIED STATES PRESIDENT
DONALD TRUMP, UNTIED STATES
DEPARTMENT OF THE NAVY,
UNITED STATES FEDERAL
BUREAU OF INVESTIGATIONS,
UNITED STATES DEPARTMENT OF
JUSTICE, UNITED STATES
DEPARTMENT OF VETERANS
AFFAIRS, and UNITED STATES
DEPARTMENT OF DEFENSE,
Defendants,

§
§
§
§

I

§
|

I

§

8
ORDER ADOPTING REPORT AND RECOMMENDAnONAND
DISMISSING CASK WITH WtKUlTfflTE
Before the Court is a Report and Recommendation filed by Magistrate
Judge Henry J. Bemponsd on Novanbo121,2019. (DkL # 56.) Fro k Plaintiff
George Andrew Benavides (“Plamtiff*} filed both objections (Did. # 70) and an
affidavit ofbias or prejudice against Magistrate Judge Bcmpond (Diet # 69) on
December 3,2019. After careflil cmisidetttijMi and review, due Court ADOPTS

1
19-51131.392

4

Caaa 5:10-cv00440-dae Decumntn filed 12IQ8UJ9 Page 2 of 6

the Report and DEfflDSS^ Plaintiff's case as frivolous and DENIES Plaintiff's
eight motions fisc enliy of defaultjudgment for the following reasons.
i

BACKGROUND
Plaintifffiled his original complaint on April 29,2019. (Dkt # 1.) In
response to Magistrate Judge BemponuPsOtaderto Shew Cense (Dki# 18),
Plaintifftiled an amended complaint on October 11,201$. (Dkl # 24.)
Plaintiffseeks a minimum of $1.5 million In damages baaed on
allegations that, in 1993, doctor* in the United States Navy implanted devioes
inside Plaintiff's teeth that intercept his thoughts and broadcasts those thoughts to
die G&VBfttmetll. (Diet. # 24.) Tha anwidwd 4mmpUitrfr contain* varinai* mttiihitu

including Plaintiff’s alleged dental x-rays, as well os letters from Plaintiffto
various members of the Govwnment. QdO Plaintiff argute there-was an “illegal
un-BufhorizEd implant of a device: wiretap or beg.” fliH
Magistrate Judge Bempond concluded that Plaintiff failed to state
iion-frivolous claims upon which relief may be granted and faded to provide
substantial evidence supporting his motions for defaultjudgment (See Dkt # 56,)
Magistrate Judge Bemporad found that Plaintiffs response to the Court’s original
Order to Show Cause (Dkt # 18) was “artiirly repetitive ofhis anginal complaint”
such that it included “no additional <t*t»{1a that would mate his claim appear
plausible on its face” and that Plaintiffs claim* appeared to hove occurred outside
2
19-51131.393

5

Caw 5:l9-cv-00440-DAE D0CLrrant7l Rled 12A9HJ9 page 3 of 6

tiie two-year statute of Umitetijons period far civil rights claims against the
Government (DkL#56at3-4.)
In his objections. Plaintiff asserts that Magistrate Judge Bemporad
ignored PlaintifPn nlleggtinw of illegal eevecrfmppirg and mwliijjiiiig mil that the

Repot toils to consular other material facta. (Dirt. #70.) Plaintiff also assarts that
Magistrate Judge Bemporsd is biased. GAjfSSaUfiDkt #69.)

LEGALSTANDARDS
Any party who seeks to object to a Magistrate Judge's findings and
rwMvnuncrxfatinrM must serve and file written objection! within 14 days after being
■ervad witheqnpynfthe findings and ee$n«imaiidgHnn. Fed R. Civ. P. 72(b)(2).

The Court conduct* a do novo review of any ofthe Magistrate Judge's conclusions
to which a party he» specifically objected. SfiS. 2S U.S.C § 636(b)(lXC) C‘Ajudge
ofthe oomtahHll make a de novo determination ofthose portions ofthe report or
specified proposed, finding* or recommendations to which objection is made.”).
When a party file* an affidavit tat slates “the frets and the masons for
toe belief that the judge overseeing the matter Tbs a personal bios or prejudice
against him," another judge shall be assigned to hear the pending proceeding. 28
U.S.C. 1144. Ajudge or magistratejudge must be disqualified where “his
impartiality mi^i* M««»k1y h» ipiwrtimiwd" «r i»lu» In. “h— a J«—m—1 !«■. w

prejudice concerning a party.” 28 U.S.C. §§ 455(a) ft (bXl). Ajudidal ruling
3
19-51131.394

6

case 5:19-cv-00440-dae DocLimm 71 tiled I2ftstis Page 4 of 6

alone “almost never ccufltitute[s] a valid basis for a bias or partiality motion.”
United Sfutaw m ral 7thya -if, Pavia S.R. Aviation, L.L.C. 658 F. App*3C 1M, 198—

99 (5th Cir: 2016) (mtenal quotation marks emitted). The determination of
whether disqualification is appropriate is within the sound discretion ofthe judge.
Ihreffinp-Inc.. 5 F.3d 109,116 (5th Or. 1993).
DISCUSSION’
This Court finds that Magistrate Judge Bcmpcrad’s Repot and
RecnmniBndBtian should be adopted. As noted above, Plaintiffhad multiple
chances to show cause and foiled to demonstrate “on arguable basis either in law or
fact.75 Neitzkev-Williams. 490 U-S- 319,325 (1989). This Court agrees with
Magistrate Judge Bemporad's finding of frivolauzness as it appears that ‘'the forts
alleged rise to the level ofthe irrational oc the -wholly incredible[.]" Denton v.
Hernandez. 504 U.S. 25,33(1992). There is nothing in the original or emended
complaint to suggest otherwise. This Court also agrees that it is highly likely that
the claims asserted here for alleged actions occurring in the 1990b are barred by the
statute oflimitations. See Moore v. McDonald. 30 F.3d tild. 620-21 (Sth Cir.
1994); Scottsv. United St^ 613 FJd 559,573 (5th Cir, 2010) fcfflnt Jones v.
Alcoa. Inc.. 339 R3d 359,364 (5th Cir. 2003) (^Federal dvil rights actions...
which lack]] an aqmesaotatute of limitations, are governed by the most closely
analogous limitations period provided under state law.”)) Booed an the fmegdng,
4
19-51131.395

96E' l£M>S‘6l>

S

'jyi|UB|j pilh pusHiq aqaipBiDduBg sSpnj 3iBi)n8B7( punn gOOT ra
Sfrnjni ^op&ijsBpfif jmpMtopiAa cm si aiaip jsip spnij JIH03 aijj, -(pHjjnna npmn
oopajonb praapjf) (9I0Z TO TO) 66-861 *fr6I *«**V '& 8£9 "i)'Tl 'WJAV
SUI^I'A&igtuMs^y |Mi]JU^iUg HT»poni^|ippi8dj(>snq«Jcgfnsqp|ieA
«[a]ajrqpsui» iaAsrapjouiis,, Hoop pRpjBpunti,! jsureSe papupcq pttiw4u»g «3pitf
ajHiunSBy; JIU3A3 ‘oionLoiping -paradox HS^japutrffepqioi^oooz in Sta^ni
pnojpnf h spam ckjm opuj afiptif shaii pip sajonjug 111103 am,

(•69#t*i> w § •o's-nsr^fw*11
pagipnbnp oqppwqs pejo&twg a9pnr Hpupttew ‘opei£ 48pnf pm pejodn»g
sfflpnf apuqsi5Bp^aBaM!^aqiKiipBin»»?npjo tpuw^ni^ipv^Nsn^ipnsid fpj)
Uisu» [stopB^ aSpnj] jo jno uncap ran* jrnw&Bj sjnPTOdtPFP* Stamp ‘QOQfZ
Aspi in opB^paBiwps aSpnf 111103 jwiyna joj paopotn pubdiosg aSpnf apqsiSRiq
sb mpi jhiibSh pasmq si pemdiiiag aSpry HjBqsiStamHip BanSjBjgpnjHU

('Oi ‘69 M **PKI »S) twpmiqpm ,[p]wn»M pro
s3|ri|

a ptuoda»g

alBtr‘!^tinilTll ini^iamm ^uBuitij ipiig 111103 oip ‘uopippc IQ

(,,10103 Xp flopspes jmp XHBpiAH
/q jagai onqSu u> uimp u saipiiqKjsH psanap xp ji /pin sapraSB sji jo *uaogjo
8JJ *mm& pajn^tl aip jsniHSH paffljm aq /sin jnamSpnf iprajap y„) (p)SS d TO

TEW*® •jBxnSjmfiirtqjapoipanBi»iocsjjnJ^«!^Bpngosp 10103 spp

gjosaCted BHBtyzrfwiy uiuwiwa 3va-owaw*x:s bto

L

<Z6£'L£li-S'61>
9

Qflpnf P3BKI rapqs puma rang
uzanropusQ

A

'6I0Z ‘6 JKpnmQ *sw»x 'oiDotnyms *<KUy<I

aanacnioossiii
'traiMUfl sub 4i£mj8|mTi)rn93pjo Xqna joj aoopooiiqSp
■JfffP'PWP08

n SDIOOfEJM W.I.TM CTSBIHBia *1 *m * JEFP^F®!^

('9S # T[a) irafey BTfi S-UQny imor>

*pa^s rooOTai agi-nu

NOISnTDNOO

gjoseftd BTtf£VZi pqy uiueuraoa ava-owahKHirs «reo

8

9

Case5:i8-cv-00440-QAE Document57 Filed 11/22/19 paoeiofi

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
GEORGE ANDREW' BENAVIDES,
PliimiiJi;

§
§
§

S
I
I

v.

SA- * D-CA-440-DAE

UNITED STATES PRESIDENT DONALD §
TRUMP. UNITED STATES DEPARTMENT o
OF JU SUCH, UNITED STATES FEDERAL 6
BUREAU OP INVESTIGATION S, UNITED §
STATES DEPARTMENT OF VETERANS §
AFFAIRS. UNITED STATES DEPARTMENT £
OF DEFENSE, UNITED STATES DEPART- $
MENT OF THE NAVY, UNITED STATUS 5
OF AMERICA, and OFFICE OF THE NAVEL g
INSPECTOR GENER AT„
§

I
5

Defendants.

ORDER RETURNING CASE TO DISTRICT COURT
All matters for whit* th is cause was referred to the Magistrate J udge having been considered
and acted upon. His ORDERED thsttbnsbrive-eniillfed and numbered cause is RETURNED to the
restrict Court for alt purposes,
SIGNED on November

2<HR

"*^1

pmr/i ,/heii ipora^
'Unitcfl-States Magistrate Judge

'h
19-51131.364

10

ca»5:Utov40440-QAE Document56 FiedUAl/18 PajjeiofB

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
GEORGE ANDREW BfiNAVIDFS,
Plaintiff,
v.
UNITED STATES PRESIDENT DONALD
TRUMP, UNITED STATES
DEPARTMENT OF JUSTICE, UNITED
STATES DEPARTMENT OF VETERANS
AFFAIRS, UNITED STATES
DEPARTMENT OF DEFENSE, UNITED
STATES DEPARTMENT OF THE NAVY,
UNITED STATES OF AMERICA, and
OFFICE OF THE NAVEL INSPECTOR
CiENERAL,
Defendants.

3
§
§
§

SA-I9-CA-MO-DAE (HJB)

§
$
§
§

&
&
§
§
5
§

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
To the Honorable United States Senior District Judge David A, Ezrat
Tills Report and Recommendation concerns die status of this case. Plaintiff was ordered
by this Court to show cause why his case should not be dismissed fin failing to slate a nonfri I'olous claim for relief. (Docket Entry 18.) In response to that Order, Plaintiff filed au
Amended Complaint an Ocluher 11, 2019. (Docket Entry 24.) Plaintiff has additionally (lied
eight motions for entry of default judgment, against the named defendants. (Docket Entries 3946.) A Her reviewing Plaintiff’s Amended Complaint, along with the other pleadings in this case,
1 recommend that Plaintiffs case he DISMISSED as frivolous, and Plaintiffs motions for entry
of default judgment (Docket Entries 39-46) he DENIED.

19-51131.358

11

COM 5:19-Cv-00440-DAE Document 56 Fled 1KZ1/19 P«QS 2 Of 6

1.

Background.
Pro se Plaintiff has filed thift action under the Civil Rights Act, 42 U.S.C. § 1983. His

complaint alleges that, while he was serving in the U.S- Marine Corps in 1993, he underwent a
root coital surgery during which the Navy dental staff implanted a device in his teeth Co intercept
and broadcast his thoughts. (Docket Entry 24, at 8, 26.)1 He also contends that he is "being
targeted and tortured by satellite weapons and electronic harassment.” (fcf. at 89.) Plaintiff has
previously complained of this issue; lie hidicates that he hied a suit in this District in 2000 which
was "dismissed and [sic] being denied due process’' by U.S. District Judge Edward C. Prado, and
that his complaints to numerous federal agencies, officers and politicians have gone unheeded.
(Id. SU26.)1 Plaintiff sues Defendants President Donald Trump, Attorney General William Harr,
the U.S. Department of the Navy, the U.S. Department of Defense, the U.S. Department of
Veteran Affairs, the Federal Bureau of Investigation, and the U-S. Department of Justice, seeking
$25 million in damages, or $1 million a year for the past 25 years. (Docket Entry 24. at 90.)
With the exception of a recent complaint he made to the Office of Inspector General for the
Department of Justice, all the events of which he complains occurred in 2015 or earlier. (Id at
BE.)
On October 11), 2019, this Court ordered Plaintiff to show cause why his case should not
be dismissed for foiling to state a non-frivolous claim for relief. (Docket Entry IE.) In response
to that Order, Plaintiff tiled his Amended Complaint on October 11, 2019. (Docket Entry 24.)

1

The documents comprising Plaintiffs Amended Complaint were not filed in sequential
order. Severn! exhibits and former complaints interrupt the sequence of what ij> otherwise an
Amended Complaint of only ten pages,
2 Plaintiff does indicate that U.S. Congressman Will IlunJ submitted a congressional
inquiry regarding the issue, but he claims that the Navy responded by lying to the congressman.
(Docket Entry 24, at 72.)
2
19-51131,359

12
Caaa5:l&-cv<XW40-DAE Document 56 F(edii/2U19 page 3 o!6

Since tiling his Amended Complaint, Pleimiff has filed eight motions for Entry of Clerk's
Defsn It Judgment against the named defendants. (Docket Entries 39-46.)

II.

Discussion.
A,

Failure to Show Cause.

Even when, as in this case, a plaintiff has paid the filing fee, district courts “have die
inherent authority to dismiss a pro se litigant's frivolous or malicious complaint sua sjjonie."
Pope v. Mruntcastle Morsg. Corp., No. 3-11-CV-16S9-B. 2011 WL 4986927, at *1 (N.D. Tex.
Oct. 18,2011) (citing Fitzgerald v. First E. Seventh St. Tenants, 221 F.3d 362,363-64 (2d Cir.
2000)).

A complaint may be dismissed us frivolous if it lacks any arguable basis in law Or (hctNeinkev. Williams, 490 U.S, 319,325 (1989); Talib v. Gilley, 138 F.3d 211,213 (5th Cir. 1998).
Claims are factually frivolous it' the facts are clearly baseless, a category encompassing
allegations that arc fanciful, fantastic, and delusional. See Denton v. Hernandez, 504 U.S. 25,
32-33 (1992); Neitzke, 490 U.S. at 327. A court must not dismiss h complaint simply because
the set of facts presented by the plaintiff appears to he “unlikely.” ftertfnw, 504 U.S. at 33.
However, a complaint must be dismissed if it fails “to state a claim ... that is plausible on its
face." Beil Ad Corp. v. Twombfy, 550 U.S. 544,570 (2007),
Plaintiff’s complaint that he was subject to surveillance through a surreptitious dental
implant appears to be delusional: such claims "rise to the level of the irrational or the wholly
incredible." Denton, 504 U.S. at 33. His Amcndod Complaint is almost entirely repetitive of his
original complaint and includes no additional details Ural would moke his claim appear plausible
on its face. Moreover, even if Plaintiff were able to state a non-ffivolous claim for relief,
virtually all of the acts of which he complained occurred well outside the two-year limitations

3
19-51131.360

13

Cass5:l9-cv<X3440-DAE Document56 Hied 11/21/19 Page4ofG

period that applies to civil rights claims against the federal government. See Spoils v. United
Stoles, 613 f.3d 559,573 (5th Cir. 2010).1
Plaintiff's response to Hie Show Cause Older foils tn state a non-frivolous claim for
relief. Therefore, Plaintiffs claims are subject to dismissal. Niitibs, 490 U.S. at 325. For these
reasons, die undersigned recommends Plaintiffs Amended Complaint he dismissed.
B.

No Right to Default Judgment.

Federal Rule of Civil Procedure 55 states that default is to be entered “(wjheit a party
against whom a judgment for affirmative relief is sought hu$ failed to plead or otherwise defend,
and that failure is shown by affidavit or otherwise.” FED. F_ Civ. P. 55(a), Default judgment
may be entered by die Clerk of Court upon a sum certain “against a defendant wire has heen
defaulted for not appearing,” FED. R. CCV. P. 55(b)(1); however, “[a] default judgment may be
entered against the United States, its officers, or its agencies only if the claimant establishes a
claim or right to relief by evidence that satisfies the court.” FED. 1L Civ. F, 55(d). Sven when
federal officials axe noL involved, default judgments me “generally disfavored in the law" in
favor of a trial upon the merits. Lacy v. Site} Corp, 227 F.3d 290,292 (5th Cir. 2000).
Applying these ivies to the instant case, default judgment is not warranted. Default
judgment may not be entered against the United Stares, its officers, or its agencies unless “the
claimant establishes a claim or right to reliefbv evidence that satisfies the court." FED. R. Civ. P,
55(d). That requirement must be met only by a showing of substantial evidence supporting the
movant's claim. Carroll v. Sec'y, Dept. Health. Edttc. & Welfare, 470 F.2d 252, 256 (5th Cir.

3 District courts arc authorized to dismiss a complaint as frivolous when “it is clear from
(he face or a complaint , , , that the claims asserted arc barred by the applicable statute of
limitations.” Moore v. McDonald, 30F.M 616,620 (5th Cir. 1994); Uartntl v. Clayior, 981 F.2d
254, 256 (5th Cir. 1993). A district court may raise rhe limitations period sua sponte. See Harris
v. Hegmaan, 198 F.3d i 53 (5lh Cir. 1999).

4
19-51131.361

14
Casa5:19-<y-00440-QAE Document 19 Rled KV02/19 Paga5oT6

inappropriate.
B. ' AV) Right to Relief.
As doled above, Federal Rule of Civil Procedure 55(d) provides that default judgment may
nor be entered against the United Stoles, its olileeis, or its agencies unless ‘'the claimant establishes
a claim or right to relief by evidence that satisfies the court.” Fed. R, Civ. P. 55(d). To meet this
requirement, a patty must show substantial evidence to support his claims. Carroll v. Sec y, fiejn.
Heakh, Educ. & Welfare, 470 F.2d252,256 (5th Cir. 1972). In this case, PlaimiffhasmadenoKuch
substantial showing. To the contrary, he admits that his claims have previously been rejected by this
Court, and they appear to be frivolous.* In such circumstances, default judgment is unavailable
against the Government.
IV.

Conclusion end Recommendation.
For the reasons set out above, T recommend diat Plaintiffs Motions for Default Judgment

(Docket Entries, 10. U, 12, 13,14,15, and 16) be DENIED.
V.

Instruction for Service and Notice fnr Right to Object.
The United States District Clerk shall serve a copy of this Report and Recommendation on

all parties by either (l) electronic transmittal to all parties represented hy attorneys registered as a
“filing user” with the clerk ofcourt, or (2) by mailing a copy to those not registered by certified mail,
return receipt requested. Written objections to this Report and Recommendation must be filed
within fourteen (14) days after being served with A copy of same, unless this time period is
modified by the district court. 28 U.S.C. § 636(b)(1); FED. R.CtV.P. 72(b). The party shall file the

3 The undesigned has today issued a show cause order requiring P laintifFto show why h i s
claims should not be dismissed as frivolous. (See Docket Entry 18.)
5

19-51131.106

15

Cass 5:i&-ohXM40-dae Document 56 Filed 11/21A9 Page 6 ot 6

attacking on appeal the tnwbjeeterl-u> peopased factual findings and legal condusuiriK accepted
by the district court, DoitgteftS v. United Serit/t. Auto. Assets. 79 F.3d 1415, 142B -29 (5th Cir,
1996) (eri lhanc}.

SIGMED.eit >fovemhe:r 21, im,

V

Mcm’Syj. Bcn-.Mfad
/ifnMI StaUia-Magistrate Judge

6

19-51131.363

16
Case

Document 19 Hied 1002/19 Pace l of 6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
GEORGE ANDREW BENAVIDES,
Plaintiff,

§
§

s
5

v.

5

SA-19-C.A-440-DAE (HJB)

§

UNITED STATES PRESIDENT DONALD §
TRUMP, UNITED STATES DEPARTMENT §
OF JUSTICE,UNITED STATES FEDERAL #
BUREAU OF INVESTIGATIONS, UNTIED §
STATES DEPARTMENT OF VETERANS §
AFFAIRS, UNITED STATES DEPARTMENT#
OF DEFENSE, UNITED STATES DEPART- $
MENT OF THE NAVY, UNITED STATES §
OF AMERICA, and OFFICE OF IHE NAVEL §
INSPECTOR GENERAL,
§
Defendants,

§
§

REPORT AND RECOMMENDAT ION
OF UNITED STATES MAGISTRATE JUDGE
To the Honorable David A. Ezra, Scalar United States District Judge:
This Report and Recommendation concernspro xn Plaintiffs Motions for Default Judgment
againat Defendants President Donald Trump, Attorney General William Bair, the U. S. Department
ofthe Navy, the U.S. Department of Defense, the U.S. Department of Veteran Affairs, die Federal
Bureau ofInvestigation, and the U-$- Department orJwslice. (Docket Entries, 10,11,12.13,14,15,
and Id.) Pretrial matters in this case have been referred to the undersigned for consideration. [See
Docker Entry 17.) For die reasons set out below, T recommend that the motions be DENIED.
I.

Jurisdiction,
Plaintiff has filed this action under the Civil Rights Act, 42 U.S,C. § 1983, asserting the

jurisdiction of this Court pursuant to 28 U.S-C. § 1343. (Docket Eutiy I, at 2.) I have authority in

19-51131.102

17

Case 5:l9-cv-00440-DAE Document 19 Filed 10W2/19 Pace 2 of 6

issxx? this Report arid Recommendation pursuant to 28 U-S.C. & 636(b).
II.

Background.
Plaintiff’s complaint alleges that, while He was serving in the U.S. Marine Corps in 1113, lie

underwent & root canal surgery during which the Navy dental staff implanted a device in his teeth
to intercept and broadcast his thoughts. (Docket Entry' 1, at 2.)
This is not the first time PlaintilThas complained ol*this issue: he indicates that he filed a suiL
in this District in 2000 which was “thrown out of court" by U.S. District Judge Edward C. Prado,
and that his complaints k> numerous federal agencies, officers and politicians have gone unheeded.
(id. at 2 3.)'
Plaintiff filed suit on April 29, 2019. Over the following weeks. Plaintiff" obtained
summonses for Defendants President Trump, the Offices of die Inspector General tor the
Departments ofthe Navy,Deface Justice,and Veterans Affairs, thcFcdcral Bureau nllrivealigatioii,
and Attorney General William Barr. (Docket Entries 2,4, and 8.) Plaintiff filed returns of these
summons; the proof of service in the returned summons were either blank, or indicated that the
summons had been served Plaintiff himself vie certified mail. (DockeL Entries 3,5, 6,7, and 9.)
None of the summons were served cm the United States Attorney for the Western District of Texas.
None have been answered.
Plaintiff ha* TiOw mo veil rordeffiull judgnienl agninsl ihe purlieu fur whom I he summonses
have been returned, pursuant to Federal Rule of Civil Procedure 55(b)(1). In each ease he socks a
judgment of $25 million. (Docket Entries 10,11,12,13, 14, 15, and 16.)

1 Plaintiffdoes indicate lhat U.S. Congressman Will Hurd submitted a congressional inquiry
regarding the issue, but he claims thai the Navy responded by lying to the congressman, (id at 3.)

2

19-51131.103

18

Caaa

ITL

Document 19 Hied 10&2/19 paoe3ofT6

Analysis,
Federal Rule ofCivil Procedure 55 States that default is tnbtemered “Iwjbena party against

whom a judgment for affirmative relief is sought has failed to plead or otherwise defend, and that
failure is shown by affidavi t or otherwise.’1 FED. R. Civ. P, 55(a). De Tuul Ljudgment may be entered
by the Clerk of Court upon a sum certain “against a defendant who has been defaulted for not
appearing," FED- R, Civ. P. 55(h)(1); however, "(a] default judgment may he entered against the
United States, its officcis, or its agencies only ifthe claimant establishes a claim orrighi. to relic Thy
evidence that satisfies the court." FED. R. Ccv, P. 55(d), Even when federal officials are not •
involved, default judgments are “generally disfavored in the law” in favor of a trial upon the merits.
Lacy v. Site3 Co/p., 227 F.3d 290, 292 (5th Cir. 2000). And any default is premised on proper
service; the fifth Circuit has held that “[wjhen a district court lacks jurisdiction over a defendant
because of improper service of process," any “default judgment is void and must be set aside...
Rogers v. Hartford Life and Acc. Ins. Co., 167 F.3d 933. MO (5th Cir. 1999).
Applying these rules to the instant case, default judgment is not warranted, both because of
improper service and because no right to relief has been shown against the UnitedSiaiea, its office™
or its agencies.
A.

Improper Service.

Federal Rule of Civil Procedure 4(c)(2) specifies who may serve a defendant In particular,
Rule 4(c)(2) srates that service cannot be made by a person who is a pany to the action. Fbi>. R.Civ,
P. 4(c)(2). Even when service is made by mail, service must be made by someone other than
Plaintiff See Avdeef v. Royal Bank ofScalltml, P.L.C.,616 F. App’x 665, 672 (5th Cir, 2015)
(affirming district court's denial of defaultjudjjmcnt because service whs improper); Shabazzv. City
3

19-51131.104

19

Caaa5:l&-cv-00440-DAE Docuiront 19 Fled 1002/19 Page 4 of 6

ofHoua., 515 F. App'x 263, 264- {5th Cir. 2013) (affirming district court's dismissal of pro sc
litigant's complaint for lack of proper service): Allen v. Travis, No, Civ, A- Np.3:06-CV-136l'M,
2007 WL1989592 (N.D. Tex. July 10,2007) (ordering the plaintiffs to make additional efforts to
complete proper service when a plainli f'f personally mailed defendants), “There is no exception for
pro sc litigants.1’ Avdeef, 616 F. App'x at 672. Thus proper service has not been made in this case.
Service was improper in Lhis case for another reason as well. Federal Rule ofCivil Procedure
4{i) sets forth the procedures for serving United Slates agencies and officers and employees sued in
their official capacities. To serve a United States agency, officer or employee, a party must serve
both the United States and also send a copy olthe summons and of the complaint by registered nr
certilied mail to the agejicy. officer or employee, Sec Fed. R, Civ, P, 4(i)(2), To serve the United

Suites, a plaintiff must, among other things, either:
(i)

deliver a copy of the summons and ofthe complaint to the United States attorney for
the district where die action is brought—or to an assistant United States attorney or
clerical employee whom the United Slates attorney designates in a writing filed with
the court—or

(ii)

send a copy of each by registered, or certified mail to the civil-process clerk at the
United States attorney’s office.

FED. R. CIV. P. 4(i)( 1)(A). In this case. Plaintiffhas not served a copy ofthe complaint on the United
States as required by Rule 4.
“[Pjroper service of process is « jurisdictional prerequisite to the entry of a default
judgment." Avdeef, 616F. App’x at 672 (citing Rogers v. Hanford Life & Accident Ins. Co., 167
F.3d 933, 940 (5th Cir. 1999)).

Because Defendants were not properly served, default is
4

19-51131.105

20

Case 51&-CV-00440-DAE Document 19 Rted 1(V02/19 Page 5 of 6

inappropriate.
R.

' ftV» flight to Relief.

As doled above, Federal Rule of Civil Procedure 55(d) provides that default judgment may
not be entered against the United States, i la olli cert, or its agencies unless "the claimant establishes
a claim or right to re1 ief by evidence that satisfies the court.” Fed. R. Ci v. P. 55(d). To meet this
requirement, a patty must show substantial evidence to support his claims. Carroll v. See V, De/ii.
Health, Educ. & Welfare, 470 F.2d252,250 (5th Cir. 1972). luthis case, Plaintiff has madeno such
substantial showing. To the contrary, he admits that his claims have previously been rejected by this
Court, and they appear to be frivolous.* In such circumstances, default judgment is unavailable
against the Government.
IV.

Conclusion and Recommendation.
For the reasons set oat above, T -recommend that Plaintiff s Motions for Default Judgment

(Docket Entries. 10. 11, 12, 13,14,15, and 16) be DENIED.
V.

Instruction for Service and Notice fnr Right to Object.
The United States District Clerk shall serve a copy of this Report and Recommendation on

all parties by either (l) electronic transmittal to all parties- represented by attorneys registered as n
‘Tiling user" with the clerk ofcourt, or(2) bymailiugaeopytothosc not registered by certified mail,
return receipt requested. Written objections to this Report and Recommendation roust be filed
within fourteen (14) days after being served with a copy of same, unless this time period is
modi Fed by the district court. 28 U.S .C. § 63 6(b)( 1), FED. R. ClV. P. 72(b). Hie party shall file the

2 The undersigned has today issued ashow cause order requiting Plaintiff to show why his
claims should not be dismissed as frivolous. (See Docket Entry' 18.)
5

19-51131.106

21

06M$i2&«»4<M4a-aAE Document 19 HtedlC«2/i8 Page 6 of 6

objections with the clerk of the court, and servo the ohjsudnns wiall oilier parties* A party filing
objections must specifically identify those findings, conclusions or icnornmeruklionr to which
objections ore being marie iintl i.he basis ihr such objections; the district court need not consider
frivolous, conclusive or general objections. A party's failure to file written objections to die
proposed findings, conclusions imd feegramcneirtioris eentoirtfiri in this report shall hnrfhc party trnm
& dc- nayo determination by the district court. Timm r. Am. 4?4 tJ,S, 140. [411-52 (.1983 j; AeaJkt
it Brawn <£■ Root. Tqg, 200 F.3d 335,340 ($lh Or. 20t)&}. Additionally. failure to file timely written
objections to die proposed findings, conclusions and ret nmntentlations contained in this Report and
Recommendation shall bar the aggrieved party, except upon grounds of plain error, tent attacking
on appeal theum>l>jeetcd4o proposed factual findings and legal conclusions accepted by the District
Court. Utmgms v. UnitedSem. Ante. Ass'n, 79 F.3d 1413,1428-29 (50i Cir. 19%) (eti banc).
SIGNEJ>on Gembei 2.201.9.

s MagHireio Judge

6

19-51131.107

22

Casd5:iS<v«0440>DAE Document id FledlOflH/19 Page lot4

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
GEORGE ANDREW BENAVIDES,
Plaintiff,

v.

$
§
§

s>

ft
ft

SA'19-CA-440-DAE (H.TB)

UNITED STATES PRESIDENT DONALD §
TRUMP, UNITED STATES DEPARTMENT §
OF .IUSTICE, UNITED STATES FEDERAL §
BUREAU OF IN VESTlCiATlONS, UNI TED §
STATES DEPARTMENT Of VETERANS §
AFFAIRS, UNITED STATES DEPARTMENT§
OF DEFENSE, UNITED STATES DEPART- 3
MENT OF THE NAVY, UNITED STATES §
OF AMERICA, and OFFICE OF THE NAVEL §
INSPECTOR GENERAL,
i
Defendants.
!

i
if

SHOW CAUSE ORDER

Before the Court is die status of the above case. Pretrial matters in this case have bean
referred to the undersigned for consideration. (See Docket Entry L7.) Because Plaintiff's claims
appear to be frivolous, He mufiL amend In's complaint to make a further showing before his ease may
go forward.
Plaintiff has filed this action under the Civil Rights Act, 42 IT.S.C 3 IMS. His complaint
alleges that, while he was serving in the U S. Marine Corps in 1993, he underwent a root canal
surgery during which the Navy dental staff implanteda device in his teeth to intercept and broadcast
histhoughts. (Docket Entry l,at2.) This is notthe first time Pkintiffhas complained of this issuer
he indicates that he filed a suiL in this District in 2000 which was “thrown out of court” by U.S.
District Judge Edward C. Prado, and that his complaints to numerous federal agencies, officers and

19-51131.98

23

Casa s:i&-cv-00440-QAE. Docuirantie Fled 10/02/18 page 2 of 4

poEiticiajis have gone unheeded, (Id at 2—3.)’ With the exception of a recent complaint he made to
the Office 0 f Inspector General for the Department of Justice, all the events of which he complains
occurred in 2015 or earlier, {id)
Plaintiffsues Defendants President Donald Tiunnp, Attorney General William Barr, the U.S.
Department ofrhe Navy, die U.S, Department of Defense, the U-S. Department of Veteran Affairs,
lire Fedejal Bureau of Investigation, and the U.S. Department of Justice, seeking $25 million jji
damages, or $1 million a year for the past 25 years. (Id. at 6.)
Even when, as in this case, a plaintiffhas paid the filing foe, district courts “have the inherent
authority to dismiss a pro sc litigant's frivolous or malicious complaint sua sponte." Pope v.
Mourxcastk Morig. Corp., No. 3-LI-CV-1&MH3, 2011 WL 4986927, at *1 {N,D. Tux. Out, 18,
2011} {citing Fitzgerald v. Fir.il Fast Seventh St. Tenants, 221 f.3d 362, 363—64 (2d Cir. 200011,
A complaint may be dismissed as frivolous if it lacks any arguable basis in law or fact.
Neitzke v. Williams, 490 U.S. 319, 325 (1989); Taiib v. Gilley, I3S F.3d2Il: 213 (5th Ctr. 1998).
Claims are Actually frivolous if the facts are dearly baseless, a category encompassing allegations
that are ftoteifia], fantastic, and delusiojial. See Denton v. Hernandez, 504 U.S, 25, 32-33 (1992);
h'eitite, 490 U.S- at 327. A court must not dismiss'a complaint simply because the set of facts
presented by the plaintiffappears to be “unlikely." Demon, 504 U.S. at 33. However, a oomplaint
must be dismissed if it fails “to state a claim... that is plausible on its face,” Sell Ail. Carp. v.
Twvmbly, 550 U.S. 544,570(2007).

1 Plaintiffdocs indicate thatU.S. Congressman Will Hurd submitted a congressional inquiry
regarding the issue, but lie claims that the Navy responded by lying to the congressman. (Id at 3.)
2

19-5113199

24

case &:is-cv-00440-DAE Document IB Fiedio/D2/l5 Page 3 of 4

Pluintiffs LiimpliirntthiLlie was subject to surveillancetltrough a surreptitious dental implant
appears to.be delusional: such claims “rise to the level of the inational or the wholly incredible.”

Denton, 504 U.S. ar 33. Moreover, even if Plaintiff were able to state a non-Frivolous claim for
relief, virtually all ofthe acts ofwhich he complained occurred well outside the two-year 1 im itations
period that applies to civil rights claims against the federal government. See Spoils v. United Slates,
613 F.3d 559, 573 (5 th Cir. 2010),*
Accordingly, it appears that Plaintiff's claims arc subject to dismissal. However, as Plaintiff
proceeds pro se, he should be given the opportunity to attempt to cure the defects in his complain;
before the ease is dismissed. See Mclizke, 490 U.S. at 329.
for the reasons set out above, it is hereby ORDERED that within twenty-one (21) days of
the daee of this Order, Plaintiff must SHOW CAUSE why his case should not be dismissed for
failing to state a non-frivolous claim for relief, Plaintiff may make this showing by filing an
amended complaint, of no more than 10 pages, alleging specific facts presenting a plausible claim
against any Defendant. Failure on Plaintiffs panto comply with the requirements ofthis paragraph
may result in the dismissal not only for failure to stale a non-frivolous claim, bat alternatively for
failure to prosecute or failure to oomply with this Order, pursuant to Federal Rule ofCivil Procedure
41(h).

2 District courts are authorized to dismiss a complaint as frivolous when ‘'it is -clearfrom the
face of a complaint,., that the claims asserted are barred by the applicable statute of limitations.”
Moore V. McDonald, 30 F,3d 616,620 (5th Cir. 1994); Gartmll v. CayJor, 9S1 F.2d 254,256 (5th
Cir. 1993). A district court may raise the limitations period xitu spume. See Harris v. Hermann, 198
F.3d 153 (5th Cir, 1999).

3

19-51131.10D

25

C&86&L9-CV-0044D-OAE Document 10 FM10/02/19 PB&e40f4

SIGNF-D (in Oclohei 2,2019.

Hctay 'JjKx" pnrad
LjrJtCG states Magistrnit: Judge

•■■V

4

19-51131.10f

26

Cua S:lfroM30WDAE Oocuiwntl7 filed Ofi/lS/lS pass 1 Of 3

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
GEORGE ANDREW BENAVIDES,
Plaintiff
vs.
WILLIAM BARR, et al.
Defendants.

§
§
§
§
§
§
§
§
§

No. 5:19-CV-440-DAE (HJB)

REFERRAL TO MAGISTRATE JUDGE
The matter before die Court is the status of the above-referenced case.
In accordance wife die authority vested in a United States Magistrate Judge
pursuant to Local Rule CV-72, and Appendix C, Local Rules for the Assignment
of Duties to United States Magistrate Judges, and pursuant to 28 U.S.C. § 636(b), it
is ORDERED thatthe instant action is REFERRED to United States Magistrate
Judge Henry Bemporad for disposition of all predial matters.
L

MATTERS REFERRED
This reference confers die following duties upon die magistrate judge

to whom this case is assigned, die parties and their counsel:
(1)

The magistratejudge may enter a scheduling order and exercise

his discretion in extending or otherwise modifying deadlines in die scheduling
order upon a showing of good cause.

13-51131.95

27

Casa 5:18-cv-0044tJ-DAE Document 17 Filed OBfl&lS Page Z of 3

(2)

Pursuant to tie magistrate judge’s authority under 28 U.S.c § 636(b),

the magistrate judge shall rule, or make a recommendation where appropriate, on
all pretrial motions, including Motions for Temporary Restraining Orders and
Preliminary Injunctions brought under Federal Rule of Civil Procedure 65. Where
th* Trmgigtnrtw

antlviTTty to m«lf mlitigw j| timitwH hy ahihifcn^ a

recommendation to this Court shall be made in lieu of an order, pursuant to 28
U.S.C. § 636(bXl)(B) and (C), unless all parlies consent that the magistrate judge
may rule on such otherwise exempt matters, pursuant to 28 U.S .C. § 636(c)(1).
(3)

Unless the parties have consented to proceed to trial before foe

magistratejudge in accordance with the scheduling order, the magistrate judge
shall return the case to this Court upon die ruling and/or filing of recommendations
on all pretrial motions pending at the time all documents under Local Rule CV16(e) are submitted.
H.

MATTERS NOT REFERRED
This reference includes any pretrial matter not specifically mentioned

above; however, this reference does not include the following:
(1) Settlement Agreements. Should the parties reach a settlement of this
case, they should contact the chambers ofthe undersigned judge in writing or by
telephone. Upon being informed of a settlement, this Court will enter such orders
as it finds proper to resolve the case
2
19-51131.96

28

Can 5:lfrC*0M40-DAE Dacixmntl? Fifed 06/16/19 Pass 3 Of 3

m.

OBJECTIONS AND APPEALS

Appeals from fee magistrate judge’s orders and objections to the
magistrate judge's recommendations shall be made in compliance with 28 U.S.C.
§ 636(b)®, Rule 72 of the Federal Rules of Civil Procedure, and Rule 4 of
Appendix C to fee Local Rules. Such objections and appeals shall be limited to
j

issues first raised before fee magistrate judge; failure to bring any defect in any
order or recommendation to fee attention of fee magistrate judge prior to raising
fee issue before this Court shall be deemed a waiver of such issue.
IT IS SO ORDERED.
DATED: San Antonio, Texas, September 16,2019.

□avid Abb Eas
Senior Uhfted State* Diitfot Jodfe

3
19-51131.97

29
Case: 19-51131 * Document: 00515374406

Pape: 1

Daie Piled: 04/07/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-51131
GEORGE ANDREW BENAVIDES..
Plaintiff - Appellant: ,
V.

WILLIAM PELIIAM BARR, United States Attorney General: DONALD
TRUMP, United Staten President: UNITED STATES DEPARTMENT OF
J I'iSTiCE; UNITED STATES FEDERAL BUREAU OF INVESTIGATIONS;
UNITED STATES DEPARTMENT OF- VETERANS AFFAIRS: UNITED
STATES DEPARTMENT OF DEFENSE: UNITED STATES DEPARTMENT.
OF THE NAVY; UNITED STATES OF AMERICA; OFFICE OF THE NAVAL
INSPECTOR GENERAL.
Defendants • Appellees
Appeal from the United States District Court
for the Western District of Texas
ON PETITION FOR REHEARING

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is DENIED.
ENTERED FOR THE COURT:
UNj

TATES CIRCUIT JUDGE-

